dod report no. d-2011-102                dos report no. Aud/cG-11-44

            A Joint Audit by the inspectors GenerAl of
                     depArtment of stAte And
                      depArtment of defense




   AfGhAn nAtionAl police trAininG proGrAm
    Would benefit from better compliAnce
   With the economy Act And reimbursAble
                AGreements




                                      AuGust 25, 2011
                                (Public Law 111-383, Section 1235)
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932. You may
also obtain a copy from the Web site of the Department of State, Office of Inspector
General at http://oig.state.gov or by e-mailing a request to OIG-Reports@state.gov.

Suggestions for Audits
To suggest or request audits, contact the Department of Defense Office of the Deputy
Inspector General for Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703)
604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ANP                           Afghan National Police
ASFF                          Afghanistan Security Forces Fund
CNAT                          Counter Narcotics Advisory Teams
CSSP                          Corrections System Support Program
CSTC-A                        Combined Security Transition Command–Afghanistan
DOS                           Department of State
DSCA                          Defense Security Cooperation Agency
INL                           Bureau of International Narcotics and Law Enforcement
                                  Affairs
JSSP                          Justice Sector Security Program
PAE                           Pacific Architects and Engineers
PSC                           Personal Services Contract
U.S.C.                        United States Code
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                  Officer, DoD
USD(P)                        Under Secretary of Defense for Policy
                                   INSPECTORS GENERAL

                 Department of Defense                      Department of State
                 400 Army Navy Drive                        2201 C Street N.W.
                 Arlington, Virginia 22202                  Suite 8100, SA-3
                                                            Washington, D.C. 20522


                                                                                 August 25, 2011

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER, DOD
               UNDER SECRETARY OF STATE FOR MANAGEMENT
               ASSISTANT SECRETARY OF STATE FOR THE BUREAU OF
                  ADMINISTRATION
               ASSISTANT SECRETARY OF STATE FOR THE BUREAU OF
                  INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT
                  AFFAIRS
               ASSISTANT SECRETARY OF STATE FOR THE BUREAU OF
                  RESOURCE MANAGEMENT AND CHIEF FINANCIAL
                  OFFICER
               DIRECTOR, DEFENSE SECURITY COOPERATION AGENCY

SUBJECT: Afghan National Police Training Program Would Benefit From Better Compliance
         With the Economy Act and Reimbursable Agreements (Report No. D-2011-102
         and AUD/CG-11-44)

We are providing this report for review and comment. In 2006, DoD assumed responsibility for
funding the Afghan National Police training program, while the Department of State (DOS)
continued to provide contract administration oversight for contracted civilian advisors, mentors,
and trainers. However, DoD and DOS needed improved processes and procedures to ensure
compliance with the Economy Act and reimbursable agreements. Specifically, DOS officials
improperly obligated an estimated $76.65 million of DoD-provided Afghanistan Security Forces
Fund appropriations for the Justice Sector Support Program, Corrections System Support
Program, Counter Narcotics Advisory Teams, and personal services contracts.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We considered
management comments on a draft of this report when preparing the final report.

Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, comments; Director,
Defense Security Cooperation Agency, comments; and the Assistant Secretary of State, Bureau
of Resource Management and Chief Financial Officer, comments were responsive, and no
additional comments are required.

Assistant Secretary of State, Bureau of International Narcotics and Law Enforcement Affairs
comments on Recommendations 1.a-e were either not responsive or partially responsive, and
comments on the final report are required by September 26, 2011. Please see the
recommendations table on page ii of this report.
                                                                                                    2



If possible, send a .pdf file containing your comments to audjsao@dodig.mil and to Ms. Evelyn
R. Klemstine, Assistant Inspector General for Audits, at klemstinee@state.gov. Copies of your
comments must have the actual signature of the authorizing official for your organization. We
are unable to accept the /Signed/ symbol in place of the actual signature. If you arrange to send
classified comments electronically, you must send them over the SECRET Internet Protocol
Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to Mr. Michael Roark
at (703) 604-9187 (DSN 664-9187) or Ms. Evelyn Klemstine at (202) 663-0372.




_____________________________                    ______________________________
Daniel R. Blair                                  Evelyn R. Klemstine
Deputy Inspector General for Auditing            Assistant Inspector General for Audits
Department of Defense                            Department of State
Office of Inspector General                      Office of Inspector General
DoD Report No. D-2011-102 (Project No. D-2011-D000JA-0009.002)
DOS Report No. AUD/CG-11-44 (Project No. 11AUD3020)                                    August 25, 2011

                 Results in Brief: Afghan National Police
                 Training Program Would Benefit From
                 Better Compliance With the Economy
                 Act and Reimbursable Agreements

What We Did                                            As a result, DoD and DOS might have violated
We conducted this audit in response to                 the Antideficiency Act. In addition, the ANP
requirements in the FY 2011 National Defense           training program did not receive an estimated
Authorization Act. This third report in a series       $75.60 million of DoD financial support. DoD
expands on DoD Report No. D-2011-080 and               could realize a benefit if the funds were returned
DOS Report No. AUD/CG-11-30, “DoD and                  and put to better use supporting the ANP
DOS Need Better Procedures to Monitor and              training program.
Expend DoD Funds for the Afghan National
Police Training Program,” July 7, 2011, in             What We Recommend
which we determined whether the Department             Among other recommendations, we recommend
of State (DOS) properly obligated DoD funds in         that INL officials identify and return the total
support of the Afghan National Police (ANP)            amount of Afghanistan Security Forces Fund
training program. DoD Report No. D-2011-095            appropriations that were improperly used on
and DOS Report No. AUD/CG-11-42, “Afghan               other programs.
National Police Training Program: Lessons
Learned During the Transition of Contract              We also recommend that Defense Security
Administration,” August 15, 2011, addressed            Cooperation Agency and DOS Bureau of
how well DOS and DoD officials planned and             Resource Management and Chief Financial
executed the transfer of management and                Officer officials perform a joint investigation of
oversight of the training program contracts.           the potential Antideficiency Act violations for
                                                       the $1.05 million of funds obligated for personal
What We Found                                          services contracts and the estimated
DOS Bureau of International Narcotics and Law          $75.60 million of funds obligated without
Enforcement Affairs (INL) officials improperly         considering Economy Act limitations and
obligated an estimated $76.65 million of               reimbursable agreement requirements.
Afghanistan Security Forces Fund
appropriations that DoD provided to support the        Management Comments and
ANP training program. Specifically, INL
officials obligated an estimated $75.60 million
                                                       Our Response
of funds for two INL rule of law programs and          Comments from DoD officials on the draft were
one INL counternarcotics program and $1.05             responsive, and no additional comments are
million of funds for personal services contracts       required. Comments from DOS officials were
contrary to either Economy Act or reimbursable         either not responsive or partially responsive and
agreement limitations.                                 comments on the final report are required by
                                                       September 26, 2011. Although not required to
This occurred because DoD did not                      comment, the Comptroller, U.S. Central
appropriately monitor INL obligations, and INL         Command, provided comments, which are
did not have adequate procedures to ensure it          reprinted at the back of the report. Please see
obligated funds in accordance with the                 the recommendations table on the next page.
Economy Act and reimbursable agreements.

                                                   i
DoD Report No. D-2011-102 (Project No. D-2011-D000JA-0009.002)
DOS Report No. AUD/CG-11-44 (Project No. 11AUD3020)                       August 25, 2011




Recommendations Table
 Management                                   Recommendations     No Additional
                                              Requiring Comment   Comments Required
 Under Secretary of Defense                                       2
 (Comptroller)/Chief Financial Officer, DoD
 Assistant Secretary of State, Bureau of                          3
 Resource Management and Chief Financial
 Officer
 Assistant Secretary of State, Bureau of      1. a-e
 International Narcotics and Law
 Enforcement Affairs
 Director, Defense Security Cooperation                           3
 Agency


Please provide comments by September 26, 2011.




                                               ii
Table of Contents
Introduction                                                                       1

      Objectives                                                                   1
      Background                                                                   1
      INL Programs That Shared the Afghanistan Training Centers                    2
      Review of Internal Controls                                                  4

Finding. DOS Improperly Obligated DoD Funds for DOS Programs and
   Personal Services Contracts                                                     5

      INL Improperly Obligated Afghanistan Security Forces Fund Appropriations     5
      DoD Needed Better Procedures to Monitor INL Obligations                      8
      INL Procedures for Obligating Economy Act Orders and Reviewing
          Invoices Needed Improvement                                              9
      INL and DoD Potentially Augmented Appropriations                            10
      ANP Training Program Did Not Receive All Benefits                           10
      Management Comments on the Finding and Our Response                         11
      Recommendations, Management Comments, and Our Response                      12

Appendices

      A. Scope and Methodology                                                    16
            Use of Computer Processed Data                                        18
      B. Prior Coverage                                                           19
      C. FY 2011 National Defense Authorization Act, P.L. 111-383, Section 1235   21

Management Comments                                                               23

      Under Secretary of Defense (Comptroller)/Chief Financial Officer,
            DoD Comments                                                          23
      Assistant Secretary of State, Bureau of Resource Management
             and Chief Financial Officer Comments                                 25
      Assistant Secretary of State, Bureau of International Narcotics
            and Law Enforcement Affairs Comments                                  26
      Defense Security Cooperation Agency Comments                                29
      U.S. Central Command Comments                                               30
Introduction
Objectives
We conducted this audit in response to requirements in Section 1235 of Public Law 111-
383, “Ike Skelton National Defense Authorization Act for Fiscal Year 2011,” (the FY
2011 Act), January 7, 2011. Following a January 7, 2011, meeting with Senate Armed
Services Committee staff, we revised the audit objective and agreed to issue at least two
reports to meet the intent of the FY 2011 Act requirements. This report expands on DoD
Report No. D-2011-080 and DOS Report No. AUD/CG-11-30, “DoD and DOS Need
Better Procedures to Monitor and Expend DoD Funds for the Afghan National Police
Training Program,” July 7, 2011, in which the audit objective was to determine whether
DOS properly obligated DoD funds in support of ANP training program requirements
and in accordance with Federal laws, regulations, and reimbursable agreements. 1 A
second report, DoD Report No. D-2011-095 and DOS Report No. AUD/CG-11-42,
“Afghan National Police Training Program: Lessons Learned During the Transition of
Contract Administration,” August 15, 2011, addressed whether the Federal Government
and contractor plans to transition the contract administration of the ANP training program
from DOS to DoD were complete and feasible. It also addressed whether DoD was
prepared to provide management and oversight of the new DoD contract. See
Appendix A for a discussion of the audit scope and methodology, Appendix B for prior
audit coverage related to the audit objective, and Appendix C for an excerpt of the
FY 2011 Act requirements.

Background
From 2003 through 2006, the DOS Bureau of International Narcotics and Law
Enforcement Affairs (INL) was primarily responsible for funding, directing, and
providing oversight of the ANP training program. Broadly defined, the ANP training
program included basic and advanced training courses for in-country ANP training, as
well as life support and security at the central and regional training center locations.
Under DOS, the training courses were held at the central training center in Kabul and at
seven regional training centers throughout Afghanistan. Since 2004, DOS has
contracted 2 with DynCorp International (DynCorp) to provide advisors, mentors, and
trainers for the ANP training program. The contractor personnel also provided life
support at the training centers, including security, food, and housing.




1
  Additional revised objectives for the first report included determining whether DOS properly approved
contractor invoices and determining the status of management actions taken in response to
recommendations made in the February 2010 joint audit report. The first report also partially addressed
requirements B and C of the FY 2011 Act.
2
  In February 2004, DOS awarded DynCorp the Civilian Police contract (S-LMAQM-04-C-0030), a $1.75
billion indefinite-delivery, indefinite-quantity contract with firm-fixed-price and cost-plus-fixed-fee
elements. The contract consisted of 1 base year, 4 option years, and four extensions through January 2012.
According to DOS officials, the total contract value as of April 30, 2011, was approximately $4.66 billion.


                                                     1
In 2005, DoD began to assume the lead role on behalf of the United States for reforming
the ANP, and in 2006, DoD assumed responsibility for funding the ANP training
program with Afghanistan Security Forces Fund (ASFF) appropriations. DoD funded
task orders S-AQMPD-05F-4305 (task order 4305), S-AQMMA-08F-5375 (task order
5375), and S-AQMMA-10F-2708 (task order 2708). DOS continued to provide contract
administration oversight for the DynCorp civilian advisors, mentors, and trainers through
reimbursable agreements between DoD and DOS. These reimbursable agreements
included a description of how INL should use the funds, the amount of funds provided,
and DoD and INL responsibilities.

Several offices within DoD are responsible for developing the reimbursable agreements
and transferring the funds to DOS. Specifically, officials from the Under Secretary of
Defense for Policy (USD[P]) stated they develop the reimbursable agreements, officials
from the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD
(USD[C]/CFO), oversee DoD financial policy, and officials from the Defense Security
Cooperation Agency (DSCA) provide financial and technical assistance. Finally, the
Commander, North Atlantic Treaty Organization Training Mission–Afghanistan (NTM–
A)/Combined Security Transition Command–Afghanistan (CSTC–A), has overall
responsibility for determining and executing program requirements and allocating funds,
and the CSTC–A Comptroller is responsible for formulating and executing the budget
and monitoring the status of the ASFF appropriations, including funds provided for the
ANP training program.

Under the authority of the Economy Act, section 1535, title 31, United States Code
(U.S.C) (31 U.S.C. § 1535), DoD provided funds to INL. The Economy Act allows an
agency to place an order with another agency for goods or services if the:

   •   amounts are available,
   •   ordering agency decides it is in the best interest of the United States,
   •   agency filling the order is able to provide or get by contract the ordered goods or
       services, and
   •   goods or services cannot be provided by contract as conveniently or cheaply by a
       commercial enterprise.

INL Programs That Shared the Afghanistan Training
Centers
In addition to the ANP training program, personnel from three other INL programs were
co-located at several of the regional training centers. The programs were the Justice
Sector Security Program (JSSP), the Corrections System Support Program (CSSP), and
the Counter Narcotics Advisory Teams (CNAT). Various DOS contractors supported
these programs, including DynCorp, Pacific Architects and Engineers (PAE), and
Civilian Police International.

JSSP and CSSP are considered rule of law programs. Rule of law is most commonly
understood to be a foundational element for the establishment and maintenance of


                                            2
democracy and economic growth, and the vehicle through which fundamental political,
social, and economic rights are protected and enforced. The concept assumes the
existence of effective and legitimate institutions, primarily a country’s national
government, to administer the law as well as to guarantee personal security and public
order. Rule of law also requires citizen confidence in the fairness and effectiveness of its
application, including procedural fairness, protection of human rights and civil liberties,
and access to justice. The absence of significant government corruption is considered a
prerequisite for effective rule of law to be established, because only in corruption’s
absence is the supremacy of law upheld.

Justice Sector Security Program
The JSSP mission is to build the capacity of Afghanistan’s criminal justice system
through training and mentoring of justice sector personnel. JSSP consists of justice
advisors, legal consultants, and corrections officers located at various sites throughout
Afghanistan. JSSP provides support to the Afghan Attorney General’s office through
training and mentoring, as well as advising the Afghan Attorney General on various
issues, including anticorruption enforcement, police and prosecutor coordination, gender
issues, and administrative and legal reform. The provincial JSSP advisors focus on
police and prosecutor training, justice sector coordination, and public awareness of legal
rights. The JSSP also provides support to the Afghan Ministry of Justice and its key
directorates, including the Policy and Strategy Unit, which provides policy and
organizational reform advice to the Justice Minister.

Corrections System Support Program
CSSP was originally part of JSSP, but INL established it as its own program in 2005
because of an increase in the number of inmates and limited international attention paid
to the Afghan corrections system. The CSSP’s main objective is advise, mentor, and
train the Afghan Ministry of Justice Central Prison Directorate in developing a safe and
humane prison system that will not radicalize prisoners. The CSSP training courses have
included emergency response team training, English language programs, and special
training for handling female inmates.

Counter Narcotics Advisory Teams
CNAT provides a year-round public outreach campaign to reduce poppy cultivation and
opium production throughout Afghanistan’s provinces. CNAT uses small teams, usually
consisting of 8 to 10 Afghans and 2 international advisors, to advance counternarcotics
awareness. Afghan teams work closely with the Afghan Ministry of Counter Narcotics,
and the advisors also support governor-led counternarcotics efforts. The Afghan team
members conduct community outreach, identify local leaders, meet with farmers and
other stakeholders, and work within traditional leadership structures to raise public
awareness and influence planting decisions, build ownership, and invest in the fight
against drugs. Provincial counternarcotics officials and community leaders are offered
classroom training and project-based mentoring.




                                             3
Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. In addition, DOS Foreign
Affairs Manual (FAM), 2 FAM 021.1, requires DOS to establish and maintain cost-
effective systems of management controls over all DOS operations to ensure that
activities are managed effectively, efficiently, economically, and with integrity, and to
provide reasonable assurance regarding the prevention of or prompt detection of errors,
irregularities, and mismanagement.
We identified that DoD and DOS did not have adequate procedures to ensure that INL
officials properly obligated DoD-provided ASFF appropriations for the ANP training
program in accordance with the Economy Act and reimbursable agreement limitations.
In addition, INL did not have adequate procedures to review invoices prior to payment.
DoD could realize a benefit if the funds were returned and put to better use supporting the
ANP training program. We will provide a copy of the report to senior officials
responsible for internal controls at DoD and DOS.




                                            4
Finding. DOS Improperly Obligated DoD
Funds for DOS Programs and Personal
Services Contracts
INL officials improperly obligated an estimated $76.65 million of ASFF appropriations
that DoD provided to support the ANP training program. Specifically, INL officials
obligated an estimated $75.60 million of funds for two INL rule of law programs and
one INL counternarcotics program and $1.05 million of funds for personal services
contracts (PSCs) 3 contrary to either Economy Act or reimbursable agreement limitations.
Part of the improper obligations related to CSSP security salaries that INL paid, despite
supporting data that indicated that the contractor did not provide the services. This
occurred because DoD relied on INL to monitor obligations, and INL did not have
adequate procedures to ensure it obligated funds in accordance with the Economy Act
and reimbursable agreements. In addition, INL paid for the CSSP security salaries that
DynCorp did not provide because INL did not have adequate procedures to review
invoices prior to payment. As a result, DoD and DOS might have violated the
Antideficiency Act, and the ANP training program did not receive an estimated $75.60
million of DoD financial support. DoD could realize a benefit if the funds were returned
and put to better use supporting the ANP training program.

INL Improperly Obligated Afghanistan Security Forces
Fund Appropriations
INL officials improperly obligated ASFF appropriations that DoD provided to support
the ANP training program. Specifically, INL obligated the funds for three INL programs,
JSSP, CSSP, and CNAT, and for PSCs, which was contrary to either the Economy Act or
reimbursable agreement limitations. The Economy Act, 31 U.S.C. § 1535, requires that a
condition or limitation applicable to the amounts for procurement of the agency placing
the order applies to the making of the contract. Therefore, INL needed to comply with
the original limitations of the DoD-provided funds, which were specifically designated
for Afghanistan security forces requirements and could only be used to award PSCs in
certain circumstances. The reimbursable agreements also imposed specific limitations on
obligating DoD funds in support of the ANP training program.

Improper Obligation and Use of DoD Funds for Three INL
Programs
INL officials improperly obligated an estimated $75.60 million4 of DoD-provided ASFF
appropriations to support the JSSP, CSSP, and CNAT programs. Personnel supporting
these programs were stationed at several regional training centers throughout

3
  A PSC creates an employer-employee relationship between the Government and the contractor.
4
  To obtain our estimate, we used the amount for life support for program personnel and student capacity at
the Afghanistan regional training centers, some security salaries, and additional expenses using the
DynCorp demobilization plan for task order 5375 (January 30, 2011), the task order 5375 statement of
work and modifications, and statements from a DOS and contractor official. The estimate is sufficient to
quantify the scope of the programs. See Appendix A for the specific estimation methodology.


                                                     5
Afghanistan. Life support at these regional training centers included, but was not limited
to, housing, food, and overhead expenses.

The INL use of DoD funds to pay the life support, salaries, and other expenses did not
comply with Economy Act and reimbursable agreement limitations. In accordance with
the Economy Act, INL was required to use DoD-provided ASFF appropriations only for
purposes permitted by Public Law 109-234, “Emergency and Supplemental
Appropriations Act for Defense, the Global War on Terror, and Hurricane Recovery,”
June 15, 2006. The public law states that ASFF appropriations are to be used to “provide
assistance, with the concurrence of the Secretary of State, to the security forces
[emphasis added] of Afghanistan, including the provision of equipment, supplies,
services, training, facility and infrastructure repair, renovation, construction, and
funding.” However, the JSSP, CSSP, and CNAT are rule of law and counternarcotics
programs, not security forces programs.

Afghanistan rule of law programs were designed to develop justice sector institutions,
improve the Afghan government’s credibility and legitimacy, and reduce support for
insurgent factions. Counternarcotics programs were designed to build the infrastructure
necessary to indict, arrest, try, convict, and incarcerate drug traffickers. Although
security forces, rule of law, and counternarcotics programs are related and depend on one
                                    another, the JSSP, CSSP, and CNAT support the Afghan
   INL should not have used         rule of law and counternarcotics programs as opposed to
    DoD-provided funds for          the ANP training program, and more specifically, the
     JSSP, CSSP, or CNAT.           Afghanistan security forces. Further, according to a
Congressional Research Service report, “Afghanistan: U.S. Foreign Assistance,” August
12, 2010, INL received International Narcotics Control and Law Enforcement funds
specifically for rule of law and counternarcotics programs. The reimbursable agreements
also did not authorize INL to use DoD-provided ASFF appropriations for JSSP, CSSP,
and CNAT. Since December 18, 2007, the reimbursable agreements have required that
training and support (life support) costs for DOS training programs not be funded by
DoD-provided ASFF. 5 Therefore, INL should not have used DoD-provided funds for
JSSP, CSSP, or CNAT because they are INL programs and the Economy Act requires
that the original limitations of the appropriations remain when the funds are transferred.

Data were not available to determine the exact amount of DoD-provided ASFF that INL
used for JSSP, CSSP, and CNAT, and instead, we estimated this amount to be about
$75.60 million. INL officials should identify and return to DoD the exact amount of
DoD-provided ASFF appropriations improperly obligated for JSSP, CSSP, and CNAT.
This amount should include, but not be limited to, life support, salaries, vehicles, fuel,
maintenance, personal protective equipment, uniforms, immunizations, and travel. In
addition, INL should identify and return to DoD any other ASFF appropriations that it
improperly obligated and spent on other INL programs.



5
 The 2007 reimbursable agreement lists the training for judges, prosecutors, and corrections officers as the
other programs.


                                                     6
Payment for CSSP Security Salaries That Were Not Provided
Part of the estimated $75.60 million in improper obligations were for CSSP security
salaries that INL paid, but the data indicated that the contractor did not provide the
services. Specifically, INL paid $0.37 million to DynCorp on five invoices associated
with task order 5375 for security staff, despite data that indicated PAE provided its own
security for CSSP. 6 PAE officials stated that DynCorp never provided direct security for
CSSP. Additionally, PAE spreadsheets showed that PAE had provided their own security
since January 2007. Based on this information, DynCorp should not have submitted
invoices to INL that included charges for CSSP security salaries, and INL should not
have paid those invoices.

Improper Obligation and Use of DoD Funds for PSCs
INL officials did not comply with Economy Act limitations for DoD-provided ASFF
appropriations when they obligated approximately $1.05 million for at least five PSCs
from 2006 through 2009. 7 An agency may not use the Economy Act as a way to go
beyond its own appropriation authority. Under FAR 17.501(d), an agency is not to use an
interagency agreement to make acquisitions that conflict with any other agency's
authority or responsibility. Therefore, for INL to properly use DoD funds to award the
PSCs, the PSCs have to be within the scope of DoD's authority.

Awarding PSCs Outside DoD’s Authority
INL awarded PSCs that were outside DoD’s authority. DoD had the authority to award
PSCs to (1) individuals performing work outside the United States if the Secretary of
Defense deemed it necessary and appropriate, and (2) experts and consultants worldwide
if the Secretary of Defense determined that the PSC was advantageous to the United
States and such services could not be adequately provided by DoD. Although some of
the PSCs INL contracted for were located outside the United States, DoD officials we
interviewed were unaware INL had awarded PSCs, so DoD officials could not have
deemed the PSCs to be necessary and appropriate. Therefore, to fit within DoD’s
authority to award PSCs:

    •   they had to be considered experts or consultants,
    •   DoD had to determine them to be advantageous, and
    •   DoD could not adequately provide the services.

According to the Office of Personnel Management regulation, 8 a consultant is a person
who provides “advice, views, opinions, alternatives, or recommendations on a temporary
and/or intermittent basis on issues, problems, or questions presented by a Federal
official.” Additionally, an expert is defined as a person that is specifically qualified by

6
  The costs for task order 4305 were billed at a summary level, and we could not determine whether INL
paid for CSSP security under that task order.
7
  According to INL records, the PSCs were for senior police advisors, a telecom advisor, and a program
manager advisor/contracting office representative.
8
  5 U.S.C. § 3109 (d) requires the Office of Personnel Management to prescribe criteria governing the
circumstances in which it is appropriate to employ a PSC. The Office of Personnel Management criteria
are in 5 Code of Federal Regulations, Section 304.102.


                                                   7
education and experience to perform difficult and challenging tasks in a particular field
beyond the usual range of achievement of competent persons in that field. However, INL
officials did not provide documentation that the PSCs were experts or consultants, that
DoD determined them to be advantageous, or that DoD could not have adequately
provided the services. In addition, as stated above, DoD officials we interviewed were
unaware that INL awarded PSCs; therefore, DoD officials could not have determined the
PSCs to be advantageous nor determined that DoD could not have adequately provided
the services.

Awarding PSCs Not Specifically Requested in the Reimbursable
Agreements
INL officials stated that the reimbursable agreements did not prevent them from awarding
PSCs using DoD-provided ASFF appropriations. Although the reimbursable agreements
did not specifically state that INL could not award PSCs, it also did not state that they
could. The only reimbursable agreement that INL could have misinterpreted as DoD
requesting the PSCs was the 2006 reimbursable agreement. Specifically, the agreement
states:

       The acquisition will appropriately be made under existing DoS contracts, entered into
       before placement of the order, to meet the requirements of DoD for the same or similar
       supplies or services; alternatively, DoS has the capability or expertise, which is not
       available within DoD, to enter into a contract for such supplies or services.

Although INL officials stated this wording allowed them to award PSCs, the Economy
Act, which takes precedence over the reimbursable agreement language, required that the
PSCs be within the scope of DoD’s appropriation authority. In addition, according to
Comptroller General opinion B-259499, August 22, 1995, an agency may use PSCs
under its own authority in carrying out an Economy Act agreement if the other agency
does not have PSC authority and if the PSCs existed before the Economy Act agreement
was signed. However, INL contracted for these PSCs after the agreement was signed.

To ensure proper use of funds, USD(C)/CFO, in coordination with USD(P), should
develop policies and procedures to ensure that specific language on the use of PSCs is
included in all future DoD interagency agreements. If DoD provides another agency
funding and authorizes the use of PSCs, then DoD should also include specific language
in the agreement to prevent the use of PSCs that exceed DoD’s authority.

DoD Needed Better Procedures to Monitor INL
Obligations
DoD officials did not adequately monitor whether INL officials obligated DoD funds in
accordance with the Economy Act and reimbursable agreements. Officials from USD(P),
USD(C)/CFO, and DSCA stated that they were not aware that DOS used DoD-provided
ASFF appropriations for DOS programs and PSCs.




                                                  8
                                   DoD officials acknowledged that they relied on INL
     DoD officials acknowledged
                                   to track the funds. In addition, although the
      that they relied on INL to
                                   reimbursable agreements required that INL provide
            track the funds.
                                   DoD a quarterly status report showing fund use, the
reports did not always include enough detailed information to conclude whether the funds
were obligated and expended in accordance with the reimbursable agreements.

DoD should develop procedures to more closely monitor work performed in accordance
with the reimbursable agreements. This should ensure that DoD complies with the
current DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” volume
3, chapter 8, which requires that the requesting activity [DoD] review all charges from
the performing activity [DOS] to ensure that amounts comply with the reimbursable
orders and are supported with a copy of the order or contract and evidence of
performance. This issue was discussed in DoD Report No. D-2011-080 and DOS report
No AUD/CG-11-30, “DoD and DOS Need Better Procedures to Monitor and Expend
DoD Funds for the Afghan National Police Training Program,” July 7, 2011; therefore
we are not making a recommendation.

INL Procedures for Obligating Economy Act Orders
and Reviewing Invoices Needed Improvement
INL did not have adequate procedures to ensure that INL officials properly obligated
DoD funds transferred under the Economy Act, including obligating funds for the award
                                      of PSCs. The INL Financial Management Handbook
     The INL handbook lacks
                                      includes a section titled, “Economy Act
   detailed guidance to ensure
                                      Reimbursement Agreements,” which states that funds
   that INL personnel properly
                                      provided to INL under the Economy Act carry the
          awarded PSCs.
                                      authorities of the authorizing legislation. It further
states that the agency providing the funds should provide the legislative authorities so
that INL would know how to use the funds. However, the INL handbook does not
provide additional procedures to ensure that INL officials obtained and followed the
authorizing legislation, specifically for PSCs. Further, in the section of the INL
handbook titled, “Personal Service Contract Personnel,” it simply states that INL PSC
policy follows U.S. Agency for International Development policy. 9 However, that policy
does not apply to interagency agreements. Therefore, the INL handbook lacks detailed
guidance to ensure that INL personnel properly awarded PSCs when using funds
provided under the Economy Act. INL officials should develop specific policies and
procedures for obtaining the requesting agency’s legislative authorities and ensuring that
INL officials responsible for obligating funds under Economy Act orders validate that the
requesting agency has the necessary authority and that INL officials comply with those
authorities.

In addition, INL did not have adequate procedures for reviewing contractor invoices.
Specifically, INL officials did not always perform a detailed review of contractor
timesheets prior to payment and relied on an INL post-payment review team to identify

9
    See 48 Code of Federal Regulations chapter 7, appendix D for policy.


                                                      9
overpayments made to DynCorp during its review of all paid invoices. Specifically, an
official from INL stated that the team reviewed the timesheets only to ensure that the
calculations were accurate. Because INL and DynCorp records indicated that INL paid
$0.37 million to DynCorp for CSSP security salaries that were not provided, INL
officials should review all available supporting documentation and recover any
overpayment. In addition, there is a risk that INL could have paid for other CSSP
services that were not provided. Therefore, INL should review all invoices for task
orders 4305 and 5375 and identify and recover any additional CSSP security salary
overpayment. The 5375 task order was scheduled to be completed on June 30, 2011.
Therefore, we are not recommending that INL improves its pre-payment review of
invoices.

INL and DoD Potentially Augmented Appropriations
INL might have improperly augmented either DoD or DOS appropriations by $76.65
million, which could result in potential Antideficiency Act violations. 10 Specifically,
when INL officials obligated an estimated $75.60 million of DoD-provided ASFF
appropriations for JSSP, CSSP, and CNAT, as well as $1.05 million for PSCs, INL and
DoD potentially violated the Purpose Statute, 11 which requires that entities apply
appropriations only to the objects for which the appropriations were made, except as
otherwise provided by law.

According to Comptroller General opinion B-308944, July 17, 2007, both the requesting
and performing agencies could be at risk for the potential Antideficiency Act violations.
Whether an agency can correct the violations to avoid an Antideficiency Act violation
depends on the availability of appropriate funds. Therefore, DOS and DSCA officials
should jointly open an investigation to determine whether Antideficiency Act violations
have occurred and take appropriate action. If an Antideficiency Act violation occurred,
DOS and DoD need to immediately report all relevant facts and a statement of actions
taken by the agency head to the President and Congress.

ANP Training Program Did Not Receive All Benefits
The ANP training program did not receive an estimated $75.60 million of DoD financial
support because of INL’s improper obligation of DoD funds for the JSSP, CSSP, and
CNAT. DoD could realize a benefit if the estimated $75.60 million of DoD funds were
returned and put to better use supporting the ANP training program. We are not
recommending that DOS return the $1.05 million for PSCs to DoD because DoD and
DOS received a benefit from those funds.




10
   An Antideficiency Act violation occurs when entities make expenditures or incur obligations in excess of
the amounts available for appropriation.
11
   31 U.S.C. § 1301(a).


                                                    10
Management Comments on the Finding and Our
Response
INL Comments
The Acting Assistant Secretary stated that “INL continues to develop and strengthen the
operational systems and controls necessary to support significant growth in program
funding and scope.” In addition, the Acting Assistant Secretary stated that INL was
concerned that the report did not mention that INL programs operated under near-combat
conditions, DoD officials agreed with the expenditures before they were made, INL relied
on DoD officials to determine the appropriate use of funds, and DoD’s delay in awarding
its contract impacted maintaining program operations. In addition, the Acting Assistant
Secretary stated that the report did not mention the “effect of notwithstanding authority to
overcome some limitations cited in the report.” For the full text of the Acting Assistant
Secretary’s comments, see the Management Comments section of this report.

Our Response
We acknowledge that conditions in Afghanistan were, and are, volatile. However, the
“near combat conditions” do not justify or permit INL to disregard applicable laws,
regulations, and reimbursable agreement requirements. For example, the reimbursable
agreements prohibited INL from using DoD funds for training and life support costs for
DOS training programs at the regional training centers, and they required that any
changes to the reimbursable agreements be in writing. The 2009 reimbursable agreement
further stated that the points of contact listed in the agreement did not have the authority
to change the terms of the agreements. INL did not provide any supporting
documentation that officials within DoD had agreed in writing that INL could use DoD
funds for INL programs. Furthermore, the DoD officials we interviewed stated that they
did not approve the use of DoD funds for INL programs.

We agree that DoD had programmatic control of the funds, and we addressed the DoD
control weaknesses in this report. However, that does not absolve INL officials from
their responsibility for ensuring that they properly obligated the funds. Internal INL e-
mails indicated that INL officials were informed in 2009 that DOS was improperly using
DoD funds for DOS programs. However, INL officials did not take any action to correct
the improper obligation or prevent future improper obligations from occurring.

We do not see how DoD’s delay in awarding the 2010 contract impacted INL practices
that had been occurring as early as 2007. The INL comments did not provide us with
sufficient information to assess whether we did not consider “the ‘notwithstanding’
authority to overcome some limitations cited in the report.”

U.S. Central Command Comments
Although not required to comment, the U.S. Central Command Comptroller provided
comments to the report and suggested that with the recent alignment of DoD and DOS
missions and funding legislation, it would be very useful if the report expanded on real
examples that could be implemented to improve cooperative financial oversight of


                                            11
transferred funds. For the full text of the Comptroller’s comments, see the Management
Comments section of the report.

Our Response
We agree that expanding on “real examples that could be implemented to improve
cooperative financial oversight of transferred funds” would be useful. In the DoD and
DOS joint audit report “DoD and DOS Need Better Procedures to Monitor and Expend
DoD Funds for the Afghan National Police Training Program (Report No. D-2011-080
and AUD/CG-11-30),” July 7, 2011, we recommended actions to DoD for improving the
monitoring and transferring of funds, such as developing, implementing, and
documenting adequate controls to ensure that funds are used for specific purposes, in
accordance with laws, and to document the appropriate use. In addition, we
recommended that procedures be developed to ensure that all future reimbursable
agreements require the ordering agency to identify excess funds within a specified time
frame after the period of performance has ended. Finally, we recommended that
procedures be developed to ensure that the appropriate officials monitor obligations and
expenditures of funds in accordance with the reimbursable agreements and applicable
laws and regulations.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs, in coordination with the Assistant
Secretary of State, Bureau of Resource Management and Chief Financial Officer:

       a. Identify and return to DoD the amount of Afghanistan Security Forces
Fund appropriations that were improperly obligated and spent on the Justice Sector
Support Program, Corrections System Support Program, and Counter Narcotics
Advisory Teams. These costs would include, but not be limited to, life support,
salaries, vehicles, fuel, maintenance, personal protective equipment, uniforms,
immunizations, and travel. The appropriations that are deemed to be improper
should be returned to DoD by September 30, 2011.

       b. Review all available supporting documentation related to CSSP security
salaries and recover any overpayments related to the $0.37 million paid to DynCorp
for CSSP security salaries and identify and recover any additional payments made
for CSSP security salaries on task orders 4305 and 5375.

       c. Determine whether the Bureau of International Narcotics and Law
Enforcement Affairs improperly obligated DoD-provided Afghanistan Security
Forces Fund appropriations for any other INL programs that were receiving
support on the DoD-funded task orders. If so, identify and return to DoD the
applicable Afghanistan Security Forces Fund appropriations by September 30,
2011.



                                           12
        d. Develop and implement policies and procedures to ensure the
appropriate Bureau of International Narcotics and Law Enforcement Affairs
officials take into account any appropriation limitations placed on funds transferred
by other U.S. Government agencies before obligating the funds for personal services
contracts.

       e. Develop and implement policies and procedures to ensure that the
Bureau of International Narcotics and Law Enforcement Affairs officials
responsible for obligating funds under an Economy Act order obtain the other
agency’s legislative authorities and validate that the ordering agency had the
necessary authority to obligate the funds for those purposes.

INL Comments Required
The INL Acting Assistant Secretary agreed to identify and return any Afghanistan
Security Forces Funds that were not in direct support of the ANP training and mentoring
program and exclusively supported JSSP, CSSP, and CNAT programs. He further stated
that INL would determine the appropriate amount and return the funds within a
reasonable period.

He stated that INL believed the estimate of $76.65 million in the report significantly
overstated the amount improperly obligated because the estimate used JSSP and CSSP
student capacity from the DynCorp demobilization plan instead of using the actual
student occupancy and services received. The INL Acting Assistant Secretary also stated
that INL did not agree with the interpretation of “security forces.”

Our Response
The INL Acting Assistant Secretary’s comments on Recommendations 1.a were partially
responsive. We recognize that student occupancy and actual services received would be
better data on which to estimate the amount of funds improperly obligated. However,
INL did not provide documentation on the actual student capacity and services received
when requested. As stated in the report, the estimate was used to quantify the scope of
the programs. Accordingly, we recommended in 1.a that INL determine the actual dollar
amount, which INL agreed to complete.

However, the Assistant Secretary’s statement that INL would analyze, identify, and
return the funds in a “reasonable period” was not responsive. Specifically, the
recommendation required INL perform this analysis by September 30, 2011. We
informed INL officials of the improper use of DoD funds for INL programs in May 2011
and believe that 4 months is reasonable. If INL cannot complete this work by September
30, 2011, it should provide DOS IG with a specific date when the funds will be returned,
along with its final analysis for DOS IG review.

In addition, the INL Acting Assistant Secretary’s comments on recommendations 1.b-e
were not responsive. Specifically, he did not directly comment on recovering potential
overpayments made to DynCorp for CSSP security salaries, performing reviews to
determine whether INL inappropriately funded other INL programs with DoD funds, or


                                           13
state whether INL would implement controls to prevent future improper obligations. We
request that INL provide comments on the final report for recommendations 1.a-e.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, in coordination with the Under Secretary of Defense for
Policy, develop procedures to ensure that all future reimbursable agreements either
specifically request or prohibit the use of personal services contracts. If the
agreements request the use of personal services contracts, ensure that the
agreements also direct the buying agencies to comply with the DoD requirements for
awarding the contracts.

USD(C)/CFO Comments
The Director of Operations, USD (C)/CFO, partially agreed with Recommendation 2. He
stated that the Office of the Secretary of Defense agreed with the recommendation that
DOS specifically request the use of personal services contracts and include the purpose of
these services in future agreements. He also stated that the Office of the Secretary of
Defense did not agree with the recommendation to require that DOS use DoD contracting
rules. Further, he stated that all future agreements entered into on behalf of DoD by DOS
would comply with statutory requirements and include sufficient safeguards to protect
DoD interests.

Our Response
The Director’s comments were responsive to our recommendation, and no additional
comments are required. While he stated the Office of the Secretary of Defense disagreed
that DOS should use DoD contracting rules, that was not our recommendation. Our
recommendation was to require DOS to comply with the DoD requirements for awarding
PSCs if the agreements requested the use of PSCs.

3. We recommend that the Assistant Secretary of State, Bureau of Resource
Management and Chief Financial Officer, and the Director, Defense Security
Cooperation Agency, perform a joint investigation of the potential Antideficiency
Act violations for the $1.05 million of funds obligated for PSCs and the estimated
$75.60 million of funds obligated without considering Economy Act and
reimbursable agreement limitations.

Bureau of Resource Management Comments
The Assistant Secretary of State, Bureau of Resource Management and Chief Financial
Officer neither agreed nor disagreed with the recommendation. He stated that he would
work with both the INL Assistant Secretary of State and the Director, DSCA, to review
the purpose and use of reimbursed funds and assess the validity of the obligations
incurred by DOS for the ANP training program.




                                           14
Our Response
The Assistant Secretary of State’s comments were responsive; however, we request that
he provide the results of their review and determination to DOS IG on whether or not to
initiate an Antideficiency Act investigation. The Assistant Secretary’s actions met the
intent of the recommendation, and therefore no additional comments are required.

DSCA Comments
The Director, DSCA, agreed with the recommendation and assigned an official to the
Antideficiency Act investigation.

USD(C)/CFO Comments
The Director of Operations, USD (C)/CFO, agreed with the recommendation.

Our Response
The Directors’ comments were responsive, and no additional comments are required.




                                           15
Appendix A. Scope and Methodology
We conducted this performance audit from September 2010 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our audit objectives, we coordinated with or interviewed officials from the
USD(P), USD(C)/CFO, DSCA, U.S. Central Command, U.S. Forces–Afghanistan, North
Atlantic Treaty Organization North Atlantic Treaty Organization Training Mission–
Afghanistan/Combined Security Transition Command–Afghanistan (CSTC–A), and
CSTC–A Comptroller. Additionally, we coordinated with or interviewed DOS officials
from INL, including the Office of Afghanistan and Pakistan Programs, Office of
Resource Management, and Afghanistan, Iraq, and Jordan Support Division; the Bureau
of Resource Management and Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management. We also coordinated with DynCorp,
PAE, and Civilian Police International contractor personnel.

We obtained and reviewed the INL Office of Resource Management budgetary tracking
spreadsheet and supporting documentation to determine whether INL obligations were
proper. Specifically, we coordinated with DoD IG and DOS IG Offices of General
Counsel to identify the applicable criteria. In addition, we obtained and evaluated
supporting documentation for nonstatistically selected PSCs to determine whether the
PSCs complied with the applicable criteria.

We were unable to obtain detailed data to determine the amount of DoD-provided funds
that INL obligated to support JSSP, CSSP, and CNAT. Therefore, we used various
summary documentation to estimate the amount of funding to quantify the scope of the
programs for the users of this report. We estimated that the daily life-support rate for
individuals residing at the regional training center was either $118.95 or $121.45,
depending on the individual’s job. This daily rate was based, in part, on the contractor’s
cost proposal for task order 5375 and statements from the DOS Office of Acquisitions
Management and DynCorp officials. We multiplied the daily rate for specified time
periods for the following categories:

     •   The number of JSSP and CSSP personnel stationed at the regional training
         centers, as reported by the CSSP and JSSP contractors.
     •   The number of CNAT personnel located at the regional training centers, as stated
         by the CNAT contractor.
     •   The capacity of JSSP and CSSP students at the regional training centers, as
         reported in the DynCorp demobilization plan (January 30, 2011), 12

12
  A demobilization plan is a drawdown of task order or contract activities. DynCorp developed a
demobilization plan for the transition of the ANP training program task order from DOS to DoD.


                                                  16
   •   The number of JSSP security staff provided by DynCorp based on the task order
       5375 statement of work and contractor’s cost proposal as well as confirmation
       from DynCorp officials.

In addition, we estimated the JSSP security staff salaries based on the task order 5375
statement of work and salary rates included in the contractor’s cost proposal. We
estimated daily expenses for JSSP security personnel; such as medical supplies, cell
phones, and phone cards, and included an additional employee relations expense for the
life support estimate as outlined in the cost proposal. We estimated the CSSP security
salaries based on DynCorp invoices.

Finally, because INL also obligated other funds for JSSP and CSSP using multiple
contract modifications, we subtracted that amount from our estimated total amount. See
Table 1 for a summary of our methodology for estimating the amount of DoD-provided
ASFF appropriations that INL used for the JSSP, CSSP, and CNAT.

                           Table 1. Estimation Methodology
                                                                   Total
                              Description
                                                               (in millions)
            Life Support
               JSSP Personnel                                         $4.05
               CSSP Personnel                                          7.33
               CNAT Personnel                                           0.25
              JSSP Student Capacity                                  28.79
              CSSP Student Capacity                                  22.07
              JSSP DynCorp Security Personnel                         3.88
            Additional Security Expenses
               JSSP Security Salaries                                 9.04
               JSSP Medical Supplies                                  0.11
               JSSP Cell Phones                                       0.14
               JSSP Phone Cards                                       0.04
               CSSP Security Salaries                                 0.37
            Total Estimate*                                          76.06
            Less DOS Amount Obligated                                 0.46
            Estimated DoD Funds Improperly Obligated                $75.60
            *Note: Because of rounding, individual expenses do not sum to
            the Total Estimate

Upon completing our initial fieldwork, we coordinated with DoD and DOS officials to
address issues we observed during the audit, provided recommendations, and verified
actions taken, where appropriate.


                                            17
Use of Computer-Processed Data
We used computer-processed data obtained from the INL Office of Resource
Management budgetary tracking spreadsheet to determine the amount of PSCs that were
funded with DoD funds. We also relied on the budgetary tracking spreadsheet to
determine what ANP training program contracts and modifications were funded with
DoD funds. To assess the reliability of the obligation amounts on the budgetary tracking
spreadsheet, we nonstatistically selected and reviewed two PSC contracts to ensure that
the obligation amounts reported on the budgetary tracking spreadsheet were correct. We
also reviewed all contract modifications and generally matched the amounts to the
spreadsheet. We did not identify any significant discrepancies, and therefore, we
determined that the budgetary tracking spreadsheet obligation amounts were generally
reliable for the purposes of this report.

In addition, we used computer-processed data from DynCorp’s cost proposal for task
order 5375 to estimate the number of security staff, as well as the security staff’s daily
rates, meals, and other expenses. A DOS contracting specialist and DynCorp official
confirmed the data. The data were sufficiently reliable to use as an estimate of the costs
of INL programs funded by ASFF appropriations. We also used computer-processed
data obtained from PAE contractor personnel related to the number of CSSP and JSSP
personnel at the regional training centers from February 2007 through June 2011. We
assessed the reasonableness of the data by comparing it to the Statement of Work for task
order 5375. The data provided by PAE were generally reliable to use as an estimate of
INL programs funded by ASFF appropriations. Finally, we used data obtained from a
DynCorp system to determine the amount that DynCorp billed on task order 5375 for
CSSP security salaries. We obtained the supporting timesheets for two of the security
charges and did not identify any discrepancies. In addition, we obtained all the invoices
related to those charges and determined that the timesheet charges were included in the
invoices. Therefore, we determined the data were generally reliable for the purposes of
this report.




                                           18
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the DoD IG, the
DOS IG, the Special Inspector General for Afghanistan Reconstruction, and the Special
Inspector General for Iraq Reconstruction have issued 13 reports discussing ANP
challenges or other contractual oversight issues. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports. Unrestricted DOS IG reports can be
accessed at http://oig.state.gov. Unrestricted Special Inspector General for Afghanistan
Reconstruction reports can be accessed at http://www.sigar.mil. Unrestricted Special
Inspector General for Iraq Reconstruction reports can be accessed at http://www.sigir.mil.

GAO
GAO Report No. GAO-09-280, “Afghanistan Security – U.S. Programs to Further
Reform Ministry of Interior and National Police Challenged by Lack of Military
Personnel and Afghan Cooperation,” March 9, 2009

GAO Report No. GAO-08-661, “Afghanistan Security – Further Congressional Action
May Be Needed to Ensure Completion of a Detailed Plan to Develop and Sustain
Capable Afghan National Security Forces,” June 18, 2008

DOS IG
DOS Report No. AUD/IQO-07-48, “Accounting for Government-Owned Personal
Property Held by Selected Contractors in Afghanistan,” August, 2007

DoD IG
DoD Report No. SPO-2011-003, “Assessment of U.S. Government Efforts to Train,
Equip, and Mentor the Expanded Afghan National Police,” March 3, 2011

DoD Report No. SPO-2009-007, “Report on the Assessment of U.S. and Coalition Plans
to Train, Equip, and Field the Afghan National Security Forces,” September 30, 2009

DOS IG and DoD IG
DoD Report No. D-2011-095 and DOS Report No. AUD/CG-11-42, “Afghan National
Police Training Program: Lessons Learned During the Transition of Contract
Administration,” August 15, 2011

DoD IG Report No. D-2011-080 and DOS Report No. AUD/CG-11-30, “DoD and DOS
Need Better Procedures to Monitor and Expend DoD Funds for the Afghan National
Police Training Program,” July 7, 2011

DOS Report No. MERO-A-10-06 and DoD Report No. D-2010-042, “DOD Obligations
and Expenditures of Funds Provided to the Department of State for the Training and
Mentoring of the Afghan National Police,” February 9, 2010



                                           19
DOS Report No. ISP-IQO-07-07 and DoD Report No. IE-2007-001, “Interagency
Assessment of Afghanistan Police Training and Readiness,” November 14, 2006

Special Inspector General for Afghanistan Reconstruction
SIGAR Audit-10-12, “ANP Compound at Kandahar Generally Met Contract Terms but
Has Project Planning, Oversight, and Sustainability Issues,” July 22, 2010

SIGAR Audit-10-11, “Actions Needed to Improve the Reliability of Afghan Security
Force Assessments,” June 29, 2010

SIGAR Audit-09-1, “Contract Oversight Capabilities of the Defense Department’s
Combined Security Transition Command – Afghanistan (CSTC-A) Need Strengthening,”
May 19, 2009

Special Inspector General for Iraq Reconstruction
SIGIR 10-008, “Long-standing Weaknesses in Department of State’s Oversight of
DynCorp Contract for Support of the Iraqi Police Training Program,” January 25, 2010




                                          20
Appendix C. FY 2011 National Defense
Authorization Act, P.L. 111-383 Section 1235




                      21
22
Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments




                    Click to add JPEG file




                                   23
Click to add JPEG file




               24
Assistant Secretary of State, Bureau of Resource
Management and Chief Financial Officer Comments




                   Click to add JPEG file




                                  25
Assistant Secretary of State, Bureau of International
Narcotics and Law Enforcement Affairs Comments




                     Click to add JPEG file




                                    26
Click to add JPEG file




               27
Click to add JPEG file




               28
Defense Security Cooperation Agency Comments




                  Click to add JPEG file




                                 29
U.S. Central Command Comments




                 Click to add JPEG file




                                30
 




    31
                     

                     

                     

                     

                     

                     

                     

                     

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT 

                 of Federal programs 

            and resources hurts everyone. 




         Call the Office of Inspector General 

                      HOTLINE 

                     202-647-3320 

                  or 1-800-409-9926 

        to report illegal or wasteful activities. 

                             

                             

                You may also write to 

              Office of Inspector General 

               U.S. Department of State
�
                       HOTLINE
                   Post Office Box 9778
                   Arlington, VA 22219
                               

        Please visit our Web site at oig.state.gov
                               

             Cables to the Inspector General 

            should be slugged "OIG Channel" 

                 to ensure confidentiality.
D




                            Department of State Office of Inspector General
                                        2201 C Street, N.W.
                                          Suite 8100, SA-3
                                   Washington, D.C. 20522-0308

                          Department of Defense Office of Inspector General
                                       400 Army Navy Drive
                                     Arlington, VA 22202-4704

The report is available online at: http://www.dodig.mil and also available at http://oig.state.gov
